CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h) I, Brad S. Francis, hereby attest under 28
U.S.C. § 1746 that this petition for a writ of certiorari contains, according to the Microsoft
word count function, 7,307 words including footnotes but not including questions presented;
listing of parties! corporate disclosure; table of contents; table of authorities! and listing of
counsel; and the appendix, including verbatim quotations required under Rule 14.1(f) set
out in the text of the brief, as exempted by Supreme Court Rule 33.1(d).
The Document was prepared using 12-point Century font with 2-point leading
between lines.
I declare under penalty of penury, pursuant to 28 U.S.C. § 1746, that the statements
in the foregoing Certificate of Compliance are true and correct; executed in Kansas City,
Missouri, this 1st day of August, 2019.

Brad SyFrancistfprwse
9704-dtforth Holmes Street
64155-2098
■Kansas City,
Mobile: (816)412-3600
■)

RECEIVED
AUG -7 20W

I

t-.

Certified of Compliant enclosed in package with Petition for a Writ of Certiorari mailed to the United
States Supreme Court delivered via U.S.P.S. REGISTERED MAIL

